No. ______

IN THE

SUPREME COURT OF THE UNITED STATES

ALVIN HERRON,
Petitioner,
v.
MARK S. INCH,
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent.

On Petition for Writ of Certiorari
to the Eleventh Circuit Court of Appeals

MOTION TO PROCEED IN FORMA PAUPERIS

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 1 of 3

The Petitioner, ALVIN HERRON, prays the Court for leave to file the petition
for a writ of certiorari without prepayment of costs and to proceed in forma pauperis.
The Petitioner’s indigency affidavit is included with this motion. Undersigned counsel
notes that the Petitioner did not complete the fourth page of the affidavit, but it is
undersigned counsel’s understanding that the intended responses are “$0.00,” since
the Petitioner is incarcerated and does not have an income or any expenses. If an
amended indigency affidavit is needed, undersigned counsel respectfully requests the
Court to allow the filing of an amended motion containing an amended indigency
affidavit.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 2 of 3

CERTIFICATE OF SERVICE
I HEREBY CERTIFY a true and correct copy of the foregoing instrument was
furnished to:
Office of the Attorney General
PL-01, The Capitol
Tallahassee, Florida 32399-1050
by U.S. mail delivery on February 18, 2021.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 3 of 3

